Office of
Inspector General
                    FISCAL YEARS 2008 & 2009
                      PERFORMANCE REPORT

                           January 2010
Farm Credit Administration                                     Office of Inspector General
                                                               1501 Farm Credit Drive
                                                               McLean, Virginia 22102-5090




January 20, 2010

The Honorable Leland A. Strom
Chairman
Farm Credit Administration
1501 Farm Credit Drive
McLean, Virginia 22102-5090

Dear Chairman Strom:

The Government Performance and Results Act of 1993 encourages organizations to manage
for results and hold managers accountable for executing programs to achieve desired
outcomes. The enclosed report documents the outcomes or impact of the products, services,
and leadership of the Office of Inspector General (OIG) during fiscal years 2008 and 2009.

The OIG continues to work to enhance its role as an agent for positive change within the Farm
Credit Administration (FCA or Agency). The results reflect the commitment that OIG staff has to
assisting you, the FCA Board, and FCA employees in achieving the Agency’s mission of
ensuring a safe and sound Farm Credit System that provides a dependable source of credit to
farmers and ranchers.

We look forward to continuing to work with you to ensure FCA remains vigilant in its efforts to
accomplish its mission. I welcome your comments on ways to improve OIG services that help
you achieve your goals for FCA’s operations.

If you have any questions, please call me at extension 4241 or 4030.

Respectfully,




Carl A. Clinefelter
Inspector General

Enclosure
                                          FARM CREDIT ADMINISTRATION
                                         OFFICE OF INSPECTOR GENERAL

                FISCAL YEARS 2008 & 2009 PERFORMANCE REPORT

                                                TABLE OF CONTENTS


                                                                                                                                      Page
Executive Summary .................................................................................................................1

Audits, Inspections, and Evaluations ........................................................................................ 3

Investigations ...........................................................................................................................7

Legislative and Regulatory Review .......................................................................................... 9

Outreach ................................................................................................................................ 10

Appendix ................................................................................................................................ 12
                              FARM CREDIT ADMINISTRATION
                             OFFICE OF INSPECTOR GENERAL

           FISCAL YEARS 2008 & 2009 PERFORMANCE REPORT

                                   EXECUTIVE SUMMARY

The Office of Inspector General (OIG) of the Farm Credit Administration (FCA or Agency) met or
exceeded most goals for performance in fiscal years (FY) 2008 and 2009. Goals pertained to:

      audits and inspections,
      technical assistance to Agency officials and management,
      continuous improvement of the OIG staff,
      investigation of administrative and criminal violations,
      reviewing and commenting on legislation and regulations affecting the Agency and the
       Inspector General community, and
      outreach.

OIG products listed below were timely and constructive while accommodating the priorities of
the Agency. Most products addressed risk to the Agency. Most of the products contained
recommendations to improve Agency operations.

During the reporting period the OIG issued four program audits:
           •   Efficiencies Realized Through Outsourcing
           •   Information Technology (IT) Infrastructure Project Management
           •   Certification and Accreditation Process
           •   Office of Examination (OE) Travel Expenses

Two financial statement audits were issued:

           •   Audit of the FCA’s FY 2007 Financial Statements
           •   Audit of the FCA’s FY 2008 Financial Statements

Two evaluations were issued:
           •   The Federal Information Security Management Act (FISMA) Evaluation for 2007
           •   The FISMA Evaluation for 2008

One inspection was issued:
           •   Agency Travel and Purchase Card Distribution, Usage, and Control




                             Farm Credit Administration ♦ Office of Inspector General
                                  Fiscal Years 2008-2009 Performance Report
                                                                                              1
The OIG also continued the practice of issuing Inspector General (IG) Observations. The
purpose of issuing an Observation is to alert Agency leadership to new issues, problems or
information to aid in decision making. The IG issued Observations on:

          •   Orientation and Ongoing Training of Governing Board Members
          •   Possible Message to FCS Institutions Regarding Agricultural Stress on
              Borrowers
          •   Policy and Organizational Change Suggestions to be Better Positioned for a
              Downturn in the Condition of the Farm Credit System
          •   Consideration of Formalization of Agency Functions Through Establishment of
              Committees to Serve the FCA Board
          •   Preparation for Pandemic Flu Outbreak


Survey to Gather Feedback on FCA Examination of System Institutions

    Since 1995, the OIG has developed, administered, and collected survey data from the
     Farm Credit System (FCS or System) on the quality and effectiveness of the Agency’s
     examination function and examiners for use by the Chief Examiner and FCA Chairman
     as a feedback mechanism. During FY 2006, the survey was discontinued while the
     survey was being substantially revamped by the OIG, aided by consultation with OE and
     an outside professional. Beginning with FY 2007, the survey was reinstituted and
     continues to provide useful feedback, mostly positive.

FCA’s Inspector General Selected to Serve as Vice Chair of the Council of the Inspectors
General on Integrity and Efficiency (CIGIE or Council)

    The IG assumed a major role as Vice Chairperson of the CIGIE, a council formed as a
     result of the passage of the IG Reform Act of 2008. He assists the Chairperson in
     planning and carrying out all agenda items and cross cutting projects undertaken by the
     Council, consisting of all 69 Inspectors General and six other Federal officials. A charter
     and strategic plan have been developed and a fully functioning Council, including
     permanent staff, is being established. There is national and international interest by
     governmental groups to learn and use CIGIE as a model. As a result, presentations on
     CIGIE are made by the IG at the request of foreign governmental organizations.

A measure of the OIG’s success is contributing to the Agency’s continuous utilization of sound
business practices and basic integrity. We are confident the Agency will continue to show firm
commitment to follow-up on OIG report findings, conclusions, and recommendations to improve
operations and programs.

The OIG welcomes comments and suggestions related to performance measurement.




                           Farm Credit Administration ♦ Office of Inspector General
                                Fiscal Years 2008-2009 Performance Report
                                                                                               2
                        AUDITS, INSPECTIONS, AND EVALUATIONS
      Objective – Audit and evaluate the Agency’s programs and operations to promote economy,
                                     efficiency, and effectiveness.


Performance Goal 1 – Deliver quality audit, inspection, and evaluation products and services
                     that are useful to the Board.


           PERFORMANCE MEASURES                                                    OUTCOME / IMPACT

Audits, inspections, and evaluations are relevant.              FCA programs and operations are more effective.
Audit coverage includes all mandated audits and at              Waste in Agency programs and operations is reduced.
least 75 percent of those suggested by the Board and            Better business practices are initiated.
management. Risk is addressed. One hundred
percent of the OIG audits are performed in high                        FCA continues to improve and develop
risk/high dollar programs and activities and/or are tied                mechanisms to streamline budget data to
to the Agency strategic planning goals.                                 products and services.
                                                                       Unqualified opinions for Agency financial
OIG performed or supervised the following audits,                       statements have continued.
inspections, and evaluations of mission critical                       Security of information has been validated and
operational areas:                                                      strengthened through FISMA reviews.
                                                                       The OIG found opportunities to save contracting
     Four audits:
                                                                        funds by utilizing the Department of the
         Efficiencies Realized Through Outsourcing
                                                                        Treasury’s Bureau of the Public Debt contract
         IT Infrastructure Project Management
                                                                        for financial statement auditing services.
         Certification and Accreditation (C&A)
                                                                       In lieu of a contractor, the OIG Senior IT Auditor
           Process
                                                                        performs the FISMA evaluation.
         OE Travel Expense Budgeting and Control
                                                                       The OIG Inspection of Purchase and Travel
     An inspection of Agency Travel and Purchase
                                                                        Card Usage and Control resulted in
      Card Usage and Control.
                                                                        strengthened controls and policies. Through
     For FY 2007 and FY 2008, OIG contracted with
                                                                        reports, managers are made more aware of
      a Certified Public Accountant (CPA) firm to audit
                                                                        employee usage of credit cards.
      FCA’s financial statements.
                                                                       The OE travel expense budgeting was adequate
     During 2007, OIG contracted with a CPA firm to
                                                                        and well documented.
      review FCA’s mission critical systems under
                                                                       A quality assurance process was developed for
      FISMA. For 2008, the OIG’s Senior IT Auditor
                                                                        the Information Resources Management plan.
      performed the FISMA evaluation.
                                                                       An audit of the Agency’s C&A process revealed
                                                                        the process was well planned and managed,
Products are timely, i.e., average time to complete
                                                                        and the process complied with the requirements
audits and issue draft reports will not exceed 6
                                                                        and guidance provided by FISMA, OMB, and
months.
                                                                        NIST.
     Draft reports for audits, inspections, and
      evaluations were issued in less than 6 months
      (average).




                                   Farm Credit Administration ♦ Office of Inspector General
                                        Fiscal Years 2008-2009 Performance Report
                                                                                                                             3
                       AUDITS, INSPECTIONS, AND EVALUATIONS
     Objective – Audit and evaluate the Agency’s programs and operations to promote economy,
                                    efficiency, and effectiveness.

Performance Goal 1 (continued) – Deliver quality audit, inspection, and evaluation products and
                                 services that are useful to the Board.


          PERFORMANCE MEASURES                                                     OUTCOME / IMPACT

Audits are constructive. At least 75 percent of audit           FCA is more effective in carrying out its mission.
products contain recommendations or agreed-upon
actions to improve Agency operations. The Agency                       Management’s attention to resolving open OIG
accepts at least 80 percent of the OIG audit action                     recommendations or agreed-upon actions
items.                                                                  continues to be diligent and more timely than in
                                                                        the past.
     Not all audits contained action items if the
      findings did not warrant corrective action. Those
      audit and inspection products containing
      recommendations to improve Agency operations
      have been accepted as agreed-upon actions
      and are addressed within a year. In some
      cases, Agency management took immediate
      action for improvement as a result of an OIG
      suggestion so no formal recommendation was
      necessary.

     At the close of FY 2007, six agreed-upon actions
      were open. During the 2-year reporting period,
      the four audits and one inspection resulted in
      eight agreed upon actions. All open items have
      been addressed and closed.

See Appendix (page 12) for details of audits and
inspections.




                                   Farm Credit Administration ♦ Office of Inspector General
                                        Fiscal Years 2008-2009 Performance Report
                                                                                                                           4
                      AUDITS, INSPECTIONS, AND EVALUATIONS
      Objective – Audit and evaluate the Agency’s programs and operations to promote economy,
                                     efficiency, and effectiveness.

Performance Goal 2 – Provide technical advice and assistance to Agency officials in developing
                     sound management information and financial reporting systems and in
                     streamlining programs and organizations.

          PERFORMANCE MEASURES                                                   OUTCOME / IMPACT
The IG advises the Chairman concerning policy                 The OIG input and advice contributes to Agency
direction or administrative priorities.                       decisions and actions that are more complete and
                                                              valid at their inception.
     The OIG, through its audit, inspection, and
      evaluation reports, provides the Chairman with                The Agency has initiated an in-depth and well
      recommendations to strengthen Agency                           structured orientation and training program for
      operations.                                                    FCA Board members.
     The IG identifies management’s top
                                                                    The Office of the Board sought technical
      challenges in the Agency’s Performance and
                                                                     perspective on certain aspects of Agency
      Accountability Report and the semiannual
                                                                     operations: compensation, organizational
      reports.
                                                                     structure, etc.
     IG Observations most often address Agency
                                                                    The OMS implemented a quality assurance
      policy or administrative functions. For
                                                                     process for the IRM Plan to ensure the
      example, the observation relating to
                                                                     accuracy of cost projections and support
      orientation and training of Board members,
                                                                     informed decisions.
      policy and organizational changes regarding
      the Agency being better positioned to deal                    We made suggestions throughout the C&A
      with the FCS downturn, etc.                                    audit to further strengthen the process that
                                                                     were well received. In addition, we informed
     The OIG conducts an ongoing survey of FCS
                                                                     Agency officials of various new requirements
      institutions as to the effectiveness of the
                                                                     and other changes being deliberated that will
      examination function and examiners. The
                                                                     have an impact on FCA’s IT security program.
      survey of FCS institutions was revamped in
      2006 and is electronic. The OIG preserves
                                                                    OMS continues to strengthen its information
      the anonymity of respondents and the integrity
                                                                     security program. For example, OMS arranged
      of the survey.
                                                                     for an independent penetration test of the
The OIG performs analysis and provides technical                     infrastructure. OMS created a process to
advice to management concerning accounting,                          ensure the Personnel Security Officer and IT
management systems and controls, and performance                     Security Specialist are notified prior to hiring a
measures.                                                            contractor so that adequate documentation and
                                                                     clearances are complete before providing
     The OIG’s contract auditing firm assessed the                  access to FCA’s information systems. In
      Agency’s accounting and financial reporting                    addition, FCA initiated a review and revision
      annually, including controls and compliance
                                                                     cycle for its information security policies and
      with laws and regulations. Any
                                                                     procedures which will include updates of
      recommendations were conveyed to the
                                                                     employee and contractor security certifications.
      Chairman and CEO, and to the Chief Financial
      Officer.                                                Increase in management requests for advice, audit
                                                              work, or technical assistance.
     The OIG’s Senior IT Auditor assessed the
      Agency’s compliance with Federal Information                  The OIG is carrying out a request for an
      security guidelines. Any recommendations                       inspection of the Agency’s compliance with the
      were conveyed to the Chairman and CEO, to                      Government in Sunshine Act.
      the Chief Information Officer and the Director
                                                                    The OIG is always receptive to management’s
      of the Office of Management Services (OMS).
                                                                     requests for audit work or for the OIG’s
                                                                     perspective on FCA operations, whether
                                                                     technical or non-technical in nature.
                                 Farm Credit Administration ♦ Office of Inspector General
                                      Fiscal Years 2008-2009 Performance Report
                                                                                                                          5
                        AUDITS, INSPECTIONS, AND EVALUATIONS
      Objective – Audit and evaluate the Agency’s programs and operations to promote economy,
                                     efficiency, and effectiveness.

Performance Goal 3 – Continuous improvement of the OIG staff, products, and internal
                     administration. Quality is highly valued.

          PERFORMANCE MEASURES                                                      OUTCOME / IMPACT

OIG training ensures the technical proficiency of staff.         Peer review reports provide an unqualified opinion
                                                                 that the OIG audit and investigative work meets or
      The OIG team has taken technical courses to
                                                                 exceeds quality audit standards prescribed by GAO
       gain proficiencies. Courses attended include:
                                                                 and the CIGIE.
       - OIG Leadership courses
       - A-123 course                                                    OIG peer review of the audit function was
       - Yellow Book Auditing (Government                                 performed by the National Archives and
         Accountability Office)                                           Records Administration in April of 2007 and we
       - Professionalism, Substance Abuse & Legal                         were found to be in full compliance with
         Ethics                                                           auditing standards. Next such review is
       - Federal Audit Executive Council Conference                       scheduled for March 2010.
       - MIS Training Institute Conference on IT Audit
                                                                         The IG’s opportunity to facilitate positive
         and Controls
                                                                          change within the Agency is enhanced by the
       - Information Security Control Association
                                                                          quality and credibility of OIG products and
         seminars
                                                                          advice.
       - Federal Audit Executive Committee meetings
         and conferences                                                 Management seeks and listens to the OIG’s
       - Ethics for Virginia CPAs                                         perspective on issues.
       - Problem Solving
       - Symposium on Emerging Banking Issues                            OIG staff members receive recognition through
       - Institute of Internal Auditors (IIA) Auditing in                 awards from the CIGIE community.
         Government                                                      The IG is a sounding board for the Office of the
       - IIA Audit Project Management                                     Board on aspects of Agency operations.
       - National Intergovernmental Audit Forum
       - CIGIE Retreat                                                   The quarterly reports on the OIG’s survey of
       - Mediation                                                        FCS institutions relative to the Agency’s
       - American University, Public Policy,                              examination function provide Agency
         Leadership Institute                                             management with quantitative and narrative
                                                                          feedback that assists in facilitating positive
      In addition, CIGIE training sessions and legal                     change.
       forums are attended. The OIG team also stays              Audit, inspection and other reports are made public
       current in FCA operations training courses and            upon issuance and the OIG uses an email mechanism
       strategic management initiatives.                         to alert those on the mailing list of new publications.
The OIG implements administrative improvements
identified through reviews of Agency programs and
through staff involvement with the professional
community.
      The OIG website is continually improved and
       kept current. As required by the Consolidated
       Appropriation Act, Pub.L. 110-161, the OIG
       initiated an effort to establish an email list for
       those who wish to receive notification when
       OIG reports are posted to the Agency’s
       website. There is a direct link to the OIG on
       the Agency homepage.
                                    Farm Credit Administration ♦ Office of Inspector General
                                         Fiscal Years 2008-2009 Performance Report
                                                                                                                             6
                                               INVESTIGATIONS
     Objective – Investigate observed, alleged, or suspected wrongdoing to prevent and detect fraud,
                waste, abuse, and mismanagement in Agency programs and operations.

Performance Goal 1 – Effectively investigate and report administrative and criminal violations relating
                     to FCA programs and personnel to Agency officials, the Attorney General
                     (when appropriate), and Congress.

          PERFORMANCE MEASURES                                                      OUTCOME / IMPACT

Investigative reports are timely and presented in an             Administrative action, convictions, or pleas are
objective and factual manner. Memoranda are                      obtained for employees and/or contractors found
issued to management describing internal control                 guilty of wrongdoing.
weaknesses or program deficiencies found during the              Management actions taken against employees serve
investigative process with suggestions to prevent                as deterrent to future wrongdoing.
and/or detect future wrongdoing.
                                                                 FCA internal policies, procedures, and controls are
      There were no investigations with                         strengthened to prevent and/or detect future
       substantiated findings during FYs 2008 and                wrongdoing.
       2009. The OIG is notified of missing equipment
       if it contains personally identifiable information              Policies and procedures involving lost laptops
       (PII). Coordinate with law enforcement to the                    were strengthened to protect PII.
       extent there is opportunity for recovery.
                                                                       The OE heightened awareness of risk and
                                                                        vulnerability of national shared credits and
                                                                        adjusted examination and monitoring policies
                                                                        accordingly.
                                                                 Public confidence in the integrity of FCA programs
                                                                 and internal operations is heightened.
                                                                 Peer review of investigative operations conducted by
                                                                 the Securities and Exchange Commission OIG
                                                                 completed December 2007. Found full compliance
                                                                 with quality standards established by CIGIE (formerly
                                                                 President’s Council on Integrity and
                                                                 Efficiency/Executive Council on Integrity and
                                                                 Efficiency (PCIE/ECIE). FCA OIG revised
                                                                 investigation guidance to further strengthen the
                                                                 program.




                                    Farm Credit Administration ♦ Office of Inspector General
                                         Fiscal Years 2008-2009 Performance Report
                                                                                                                         7
                                             INVESTIGATIONS
      Objective – Investigate observed, alleged, or suspected wrongdoing to prevent and detect fraud,
                 waste, abuse, and mismanagement in Agency programs and operations.


Performance Goal 2 – Cause FCA employees and managers to recognize their responsibility and
                     report observed or suspected wrongdoing to the OIG.


            PERFORMANCE MEASURES                                                  OUTCOME / IMPACT

Allegations of wrongdoing are received in a timely             Investigations are more successful because they are
manner and are supported by specific information.              initiated in a timely manner and have better
                                                               information.
       The OIG has a secure email hotline,
        fca-ig-hotline@rcn.com and phone numbers                     Several hotline complaints were referred to the
        703-883-4316 and toll free 800-437-7322.                      Office of Congressional and Public Affairs and
                                                                      OE for review and follow-up. In one potential
       Follow-up by OIG and appropriate forwarding                   criminal case, the OIG acted as a liaison with
        to other Agency offices.                                      the U.S. Attorney’s office.
                                                                     The IG led an attempt to retrieve a lost laptop
                                                                      through coordination with airline officials at
                                                                      Dulles Airport. An airline employee was
                                                                      suspected of involvement with missing
                                                                      equipment.
                                                               FCA employees are more willing to report real or
                                                               suspected wrongdoing because they trust the
                                                               competence and fairness of OIG’s investigations.
                                                                     The OIG’s Counsel made presentations to new
                                                                      employees regarding their responsibility to
                                                                      report observed or suspected fraud, waste,
                                                                      abuse of authority, mismanagement, or other
                                                                      wrongdoing.




                                  Farm Credit Administration ♦ Office of Inspector General
                                       Fiscal Years 2008-2009 Performance Report
                                                                                                                        8
                         LEGISLATIVE AND REGULATORY REVIEW
   Objective – Review and make recommendations regarding existing and proposed legislation and
   regulations relating to Agency programs and operations and the Inspectors General Community.

Performance Goal 1 – Maintain an effective program for reviewing and commenting on proposed and
                     existing legislation and regulations affecting the Agency and the IG
                     Community.

           PERFORMANCE MEASURES                                                    OUTCOME / IMPACT

Processes are established and documented for                    The OIG input is part of the decision making process
identifying and circulating (as appropriate) relevant           in approving or amending legislation, regulations,
documents.                                                      circulars and other policy positions.
      Legislation and proposed rules are tracked on a                The OIG collaborated with the Office of
       regular basis.                                                  Regulatory Policy to designate points in time
      The CIGIE legislation committee is active in                    when information on regulations and briefings
       forwarding interest items.                                      will be sent to the OIG.
Constructive comments on relevant documents are                 Constructive criticism and creative alternatives offered
submitted by the deadlines requested by the office,             in OIG comments improve the quality and usefulness
Agency, or staff circulating comments.                          of documents initiated by the Agency.
                                                                FCA Board and management are informed about the
                                                                status of new or pending legislation or regulations
                                                                initiated externally.
                                                                      The IG Reform Act of 2008 made Program
                                                                       Fraud Civil Remedies Act applicable to a
                                                                       broader (more than cabinet level) range of
                                                                       agencies. When FCA develops implementing
                                                                       regulations, this act may be utilized as a tool to
                                                                       combat fraud.
                                                                      The IG and Counsel were active in planning
                                                                       implementation of the IG Reform Act provisions,
                                                                       especially those concerning funding of the
                                                                       CIGIE.
                                                                      Legislative update and reform is continually
                                                                       considered as a future remedy to outdated
                                                                       provisions in the Farm Credit Act.
                                                                Review of several regulations including: Proposed and
                                                                Final Rule on Priority of Claims; Proposed Rule on
                                                                Processing and Marketing; Final Rule on Farmer Mac
                                                                Risk-Based Capital Stress Test Revisions; and
                                                                Proposed Rule on Liquidity and Investment.




                                   Farm Credit Administration ♦ Office of Inspector General
                                        Fiscal Years 2008-2009 Performance Report
                                                                                                                            9
                                                 OUTREACH
  Objective – Work with our Agency head and the Congress to improve program management; and
      work with the Inspectors General Community and other related organizations to address
                                     governmentwide issues.


Performance Goal 1 – Promote OIG’s role within the FCA and the community at large.



          PERFORMANCE MEASURES                                                   OUTCOME / IMPACT

Develop and maintain educational brochures or                 Agency employees’ acceptance of and cooperation
pamphlets describing OIG roles and activities.                with OIG activities is improved through better
                                                              understanding. OIG programs and products are
    Examples include Strategic Planning brochure,            improved through feedback from Agency employees.
     The IG at FCA pamphlet, FCA Orientation
     PowerPoint presentation, and the CIGIE Annual                    OIG updates Directives periodically.
     Report.                                                          Developed PowerPoint presentation on the OIG
Facilitate feedback from Agency employees and refine                   at FCA for web use and for new employee
products and practices based on the feedback to OIG                    training.
products and educational materials.                                   IG led an attempt to retrieve a lost laptop
    The OIG would be receptive to any and all                         through coordination with airline officials at
     feedback received from Agency management                          Dulles Airport.
     and staff regarding OIG practices and products.                  Reaction to IG Observations has been positive.
                                                                           Observation on pandemic flu influenced
                                                                            Agency action to be proactive.
                                                                           Observation on record retention, particularly
                                                                            related to minutes of senior staff meetings,
                                                                            proved effective.
                                                                           An inspection from a prior time period
                                                                            suggested revision of enforcement policies
                                                                            and procedures. Although at first reluctant,
                                                                            FCA management reaps the benefits of
                                                                            revising and upgrading enforcement policies
                                                                            and practices since they have been needed
                                                                            in recent times.
                                                              Audit follow-up is improved.
                                                                      Agreed-upon actions are taken more
                                                                       expeditiously. Rarely does an action take more
                                                                       than a year to clear.

                                                              Responded to Congressional Request (Rep. Issa,
                                                              December 2008) inquiries about “unimplemented
                                                              recommendations.”




                                 Farm Credit Administration ♦ Office of Inspector General
                                      Fiscal Years 2008-2009 Performance Report
                                                                                                                        10
                                                   OUTREACH
    Objective – Work with our Agency head and the Congress to improve program management; and
        work with the Inspectors General Community and other related organizations to address
                                       governmentwide issues.
Performance Goal 2 – Provide leadership to organizations directly contributing to the IG community,
                     the Agency, and the Federal Government.

          PERFORMANCE MEASURES                                                     OUTCOME / IMPACT
Time and resources are provided to OIG staff                    Projects and activities of adjunct organizations such
members as an incentive to contribute to the Agency             as the AGA, the Institute of Internal Auditors, CIGIE,
and outside organizations by serving on committees              CCIG, FLETC, and IG Training forums are improved
and holding offices.                                            by OIG staff contributions and participation.
    OIG staff actively participated in CIGIE: IG is the           IG participates in the CIGIE working group on
     Vice Chairperson of CIGIE. The IG is a member                  inspections and evaluations. The group
     of the Executive Council of CIGIE. The IG and                  collaborates and shares common areas for
     staff participate on the Inspection and Evaluation             inspection and evaluation work.
     Council of CIGIE, Association of Government                   IG frequently makes presentations on the IG
     Accountants (AGA), Council of Counsels (CCIG),                 Reform Act and CIGIE to organizations and
     CIGIE Federal Audit Executive Committee                        international groups.
     (FAEC), CIGIE FAEC IT Committee, Instructor at                IG participates in monthly Financial Regulatory
     the Federal Law Enforcement Training Center                    Coordinating Committee meetings.
     (FLETC), FCA Employees’ Council, Federal                      Counsel was on several workgroups with other
     Women’s Program Committee, Blacks In                           counsels, including investigation curriculum
     Government, Administrative Burden Reduction                    development.
     Workgroup, and the Combined Federal                           Counsel was involved in reviewing CIGIE
     Campaign.                                                      legislation, funding mechanisms, and initial
                                                                    planning.
OIG networking opportunities have resulted in an
                                                                   Counsel led an effort to prepare policies and
expanded consideration of FCA ideas and practices
                                                                    documentation for use in sharing OIG counsel
by community contacts and experts. The OIG has
                                                                    within the OIG community.
shared telecommuting policies, hotline procedures,
                                                                   OIG auditors performed a peer review of the audit
performance measures and performance contracts
                                                                    program of the OIG, Equal Employment
and evaluation methods. Likewise, FCA benefits from
                                                                    Opportunity Commission (EEOC) in 2008. FCA
the opportunity to benchmark practices in other
                                                                    OIG shared with the EEOC OIG our process for
agencies.
                                                                    conducting quality control reviews on work papers
                                                                    and also provided EEOC OIG with a template for
                                                                    auditor’s statement on independence.
                                                                   OIG auditor actively participates in the FAEC IT
                                                                    Committee. This subcommittee is currently
                                                                    working with the Office of Management and
                                                                    Budget to revise the performance metrics for
                                                                    FISMA reporting by OIGs.
                                                                   OIG auditor participates on an administrative
                                                                    workgroup charged with setting up the
                                                                    infrastructure for CIGIE operations which includes
                                                                    developing business, financial and staffing plans;
                                                                    and acquiring business services, office space, IT
                                                                    equipment and services, and telecommunications.
                                                                FCA programs and operations are more effective and
                                                                efficient.
                                                                   OIG was acknowledged by the Project on
                                                                      Government Oversight (POGO) for having
                                                                      effective performance reporting.


                                   Farm Credit Administration ♦ Office of Inspector General
                                        Fiscal Years 2008-2009 Performance Report
                                                                                                                         11
                                                                       APPENDIX

                                                                          AUDITS
                                AUDITS ARE                                            PRODUCTS ARE                 AUDITS ARE            AGENCY ACCEPTS
     AUDIT NAME                                      RISK ADDRESSED
                                 RELEVANT                                                TIMELY                   CONSTRUCTIVE               ≥ 80 %

Efficiencies Realized
                                OIG Initiated          Strategic Plan                       7 Months                 No Findings                N/A
Through Outsourcing

IT Infrastructure Project                                                                                                               Management Accepted
                                OIG Initiated          Strategic Plan                       6 Months            1 Agreed-Upon Action
Management                                                                                                                                and Implemented


OE Travel Expenses              OIG Initiated          Strategic Plan                       5 Months                 No Findings                N/A


FY 2007 and 2008            Legislatively Mandated
                                                       Strategic Plan                       6 Months                 No Findings                N/A
Financial Statements             Annual Audit

Certification and
                                OIG Initiated          Strategic Plan                       6 Months                 No Findings                N/A
Accreditation Process

                                                                     INSPECTIONS
FCA Travel and
Purchase Card                                                                                                                           Management Accepted;
                                OIG Initiated          Strategic Plan                       5 Months            4 Agreed-Upon Actions
Distribution, Usage, and                                                                                                                   All Implemented
Control

                                                                    EVALUATIONS
Federal Information
                                                                                                                3 Agreed-Upon Actions
Security Management                                                                                                                     Management Accepted;
                            Legislatively Mandated     Strategic Plan                       3 Months               (FY 08 Evaluation
Act Evaluation for FY                                                                                                                      All Implemented
                                                                                                                        Report)
2008 and 2007


                                                     Farm Credit Administration ♦ Office of Inspector General
                                                          Fiscal Years 2008-2009 Performance Report
                                                                                                                                                          12
